Case: 19-50044

Document: 00515317995

Page: 1

Date Filed: 02/21/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-50044

REBECCA H. GALLOGLY,
Plaintiff - Appellant
v.
ATTORNEY GENERAL OF THE UNITED STATES OF AMERICA; UNITED
STATES ATTORNEYS OFFICE, Western District of Texas; UNITED
STATES DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT;
UNITED STATES ENVIRONMENTAL PROTECTION AGENCY; THE
STATE OF TEXAS; TRAVIS COUNTY CRIMINAL COURT; THE CITY OF
AUSTIN; CAPITAL AREA PRIVATE DEFENDER SERVICE; 2013 TRAVIS
HEIGHTS L.P.; EUREKA MULTIFAMILY GROUP; DOMINIUM
APARTMENTS; ATTORNEY MICHAEL BURKE; TRAVIS COUNTY
DISTRICT ATTORNEY’S OFFICE,
Defendants - Appellees

Appeal from the United States District Court
for the Western District of Texas

ON PETITION FOR REHEARING
Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED.

Case: 19-50044

Document: 00515317995

Page: 2

Date Filed: 02/21/2020

ENTERED FOR THE COURT:
UNITED STATES CIRCUIT JUDGE

Case: 19-50044

Document: 00515232902

Page: 1

Date Filed: 12/11/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50044
Summary Calendar

FILED
December 11,2019
Lyle W. Cayce
Clerk

REBECCA H. GALLOGLY,
Plaintiff - Appellant
v.

ATTORNEY GENERAL OF THE UNITED STATES OF AMERICA; UNITED
STATES ATTORNEY’S OFFICE, Western District of Texas; UNITED
STATES DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT;
UNITED STATES ENVIRONMENTAL PROTECTION AGENCY; THE
STATE OF TEXAS; TRAVIS COUNTY CRIMINAL COURT; THE CITY OF
AUSTIN; CAPITAL AREA PRIVATE DEFENDER SERVICE; 2013 TRAVIS
HEIGHTS L.P.; EUREKA MULTIFAMILY GROUP; DOMINIUM
APARTMENTS; ATTORNEY MICHAEL BURKE; TRAVIS COUNTY
DISTRICT ATTORNEY’S OFFICE,
Defendants - Appellees

Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:18-CV-571

Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
AFFIRMED. See Fifth Cir. R. 47.6.

'Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Case l:18-cv-00571-RP Document 16 Filed 12/21/18 Page lot 2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
REBECCA GALLOGLY,
§
Plaintiff,

1:18-CV-571-RP

v.

ATTORNEY GENERAL OF THE
UNITED STATES;.THE U.S.
ATTORNEY’S OFFICE, WESTERN
DISTRICT OF TEXAS - AUSTIN; THE
U.S. DEPARTMENT OF HOUSING
AND URBAN DEVELOPMENT; THE
STATE OF TEXAS; TRAVIS COUNTY
CRIMINAL COURT; TRAVIS COUNTY
DISTRICT ATTORNEY’S OFFICE; THE
CITY OF AUSTIN; CAPITAL AREA
PRIVATE DEFENDER SERVICE; 2013
TRAVIS HEIGHTS, LP; EUREKA
MULTIFAMILY GROUP; DOMINIUM
APARTMENTS; MICHAEL BURKE,
ATTORNEY,
Defendants.

§

§
§
§
§

§
§
§

FINAL JUDGMENT
On this date, the Court issued an order adopting the report and recommendation of
United States Magistrate Judge Mark Lane recommending dismissal without prejudice of
Plaintiff Rebecca Gallogly’s complaint in this matter. As nothing remains to resolve, the
Court renders Final Judgment pursuant to Federal Rule of Civil Procedure 58.
IT IS ORDERED that the case is CLOSED.
IT IS ORDERED that each party bear its own costs.

Case l:18-cv-00571-RP Document 16 Filed 12/21/18 Page 2 of 2

SIGNED December 21, 2018.

ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

2

Case l:18-cv-00571-RP Document 15 Filed 12/21/18 Page lot2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
REBECCA GALLOGLY,

§

Plaintiff,
V.

ATTORNEY GENERAL OF THE
UNITED STATES; THE U.S. ATTORNEY’S
OFFICE, WESTERN DISTRICT OF
TEXAS - AUSTIN; THE U.S.
DEPARTMENT OF HOUSING AND
URBAN DEVELOPMENT; THE STATE OF
TEXAS; TRAVIS COUNTY CRIMINAL
COURT; TRAVIS COUNTY DISTRICT
ATTORNEY’S OFFICE; THE CITY OF
AUSTIN; CAPITAL AREA PRIVATE
DEFENDER SERVICE; 2013 TRAVIS
HEIGHTS, LP; EUREKA MULTIFAMILY
GROUP; DOMINIUM APARTMENTS;
MICHAEL BURKE, ATTORNEY,

§
§
§
§
§
§

1:18-CV-571-RP

§

§

§
§
§

Defendants.
ORDER
Before the Court is the report and recommendation of United States Magistrate Judge Mark
Lane concerning Plaintiff Rebecca Gallogly’s (“Gallogly”) complaint pursuant to 28 U.S.C.
§ 1915(e), 28 U.S.C. § 636(b) and Rule 1(d) of Appendix C of the Local Rules of the United States
District Court for the Western District of Texas. (R. & R., Dkt. 11). In his report and
recommendation, Judge Lane recommends that the Court dismiss this action pursuant to 28 U.S.C.
§ 1915(e)(2)(B). (Id. at 24). Gallogly timely filed objections to the report and recommendation.
(Objs, Dkt. 14).
A party may serve and file specific, written objections to a magistrate judge’s findings and
recommendations within fourteen days after being served with a copy of the report and
recommendation and, in doing so, secure de novo review by the district court. 28 U.S.C. § 636(b).

Case l:18-cv-00571-RP Document 15 Filed 12/21/18 Page 2 of 2

Because Gallogly timely objected to each portion of the report and recommendation, the Court
reviews the report and recommendation de novo. Having done so, the Court overrules Gallogly’s
objections and adopts the report and recommendation as its own order.
Accordingly, the Court ORDERS that the report and recommendation of United States
Magistrate Judge Mark Lane, (Dkt. 11), is ADOPTED. Gallogly’s complaint, (Dkt. 1), is
DISMISSED WITHOUT PREJUDICE.
SIGNED on December 21, 2018.

ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

2

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 1 of 25

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
REBECCA GALLOGLY,
Plaintiff,
V.
GENERAL
OF
THE
ATTORNEY
UNITED
STATES;
THE
U.S.
ATTORNEY’S
OFFICE,
WESTERN
DISTRICT OF TEXAS - AUSTIN; THE
U.S. DEPARTMENT OF HOUSING AND
URBAN DEVELOPMENT; THE STATE
OF
TEXAS;
TRAVIS
COUNTY
CRIMINAL COURT; TRAVIS COUNTY
DISTRICT ATTORNEY’S OFFICE; THE
CITY OF AUSTIN; CAPITAL AREA
PRIVATE DEFENDER SERVICE; 2013
TRAVIS HEIGHTS, LP; EUREKA
MULTIFAMILY GROUP; DOMINIUM
APARTMENTS; MICHAEL BURKE,
ATTORNEY,
Defendants.

§
§
§
§
§

A-18-CV-00571 -RP-ML

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

ORDER ON IN FORMA PAUPERIS STATUS AND
REPORT AND RECOMMENDATION ON THE MERITS OF THE CLAIMS
TO THE HONORABLE ROBERT PITMAN
UNITED STATES DISTRICT JUDGE:
The Magistrate Court submits this Report and Recommendation to the United States
District Court pursuant to 28 U.S.C. § 636(b) and Rule 1 of Appendix C of the Local Court
Rules of the United States District Court for the Western District of Texas, Local Rules for the
Assignment of Duties to United States Magistrate Judges.
Before the court is Plaintiffs Application to Proceed In Forma Pauperis. Dkt. #2.
Because Plaintiff is requesting permission to proceed in forma pauperis, this court must review
and make a recommendation on the merits of Plaintiff s claims pursuant to 28 U.S.C. § 1915(e).
1

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 2 of 25

Request To Proceed In Forma Pavperis

I.

The court has reviewed Plaintiffs financial affidavit and determined Plaintiff is indigent
and should be granted leave to proceed in forma pauperis. Accordingly, the court hereby
GRANTS Plaintiffs request for in forma pauperis status. The Clerk of the Court shall file the
complaint without payment of fees or costs or giving security therefor pursuant to 28 U.S.C. §
1915(a). This indigent status is granted subject to a later determination the action should be
dismissed if the allegation of poverty is untrue or the action is found frivolous or malicious
pursuant to 28 U.S.C. § 1915(e). Plaintiff is further advised, although Plaintiff has been granted
leave to proceed in forma pauperis, a court may, in its discretion, impose costs of court at the
conclusion of this lawsuit, as in other cases. Moore v. McDonald, 30 F.3d 616, 621 (5th Cir.
1994).
As stated below, this court has made a § 1915(e) review of the claims made in this
complaint and is recommending Plaintiffs claims be dismissed without prejudice under 28
U.S.C. § 1915(e). Therefore, service upon Defendants should be withheld pending the District
Court’s review of the recommendations made in this Report. If the District Court declines to
adopt the recommendations, then service should be issued at that time upon Defendants.
II.

Review of the Merits of the Claim
A.

Factual Background

Rebecca Gallogly, Ph.D. (“Dr. Gallogly”) brings this 140 page Complaint against a
multitude of defendants under 28 U.S.C. § 1331 and 42 U.S.C. § 1983.1 Dkt. #1 (“Compl.”). Her
Complaint describes a litany of grievances stemming from a criminal trespass charge and her
participation in the Section 8 housing voucher program at Lucero Apartments.

Dr. Gallogly filed a Motion to Amend Complaint to reflect she was filing suit under § 1331 and § 1983. Dkt.
#10.
2

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 3 of 25

On August 4, 2015, Dr. Gallogly was arrested for criminal trespass on the campus of the
University of Texas at Austin. Compl. at 8. Dr. Gallogly alleges this arrest was illegal because
she was “peaceably seeking an appointment with the Office of the President” to address a civil
rights complaint and advocate for administrative change within a postdoctoral office. Id. Michael
Burke (“Burke”) from the Capital Area Private Defender Service (“CAPDS”) was appointed to
represent her for the proceedings. Id. Dr. Gallogly alleges Burke was ineffective for failing to
assert a “legitimate business” defense to the charge. Id. at 9. She also alleges the Travis County
Criminal Court judge acted “curtly and with an air of haughty and spiteful righteous indignation”
and did not give her an opportunity to provide evidence during a pretrial motion to dismiss
hearing. Id. at 10. CAPDS arranged a competency evaluation for Dr. Gallogly, which she alleges
was dubiously timed during her menstruation. Id. at 10. Furthermore, she alleges that CAPDS’s
treatment of her during these evaluations was degrading and caused her emotional anguish. Id.
at 11.
While her criminal trespass case was pending, Eureka Multifamily Group (“Eureka”), the
management company for Lucero Apartments (“Lucero”), contacted Dr. Gallogly on July 5,
2016 to inform her a Section 8 apartment was available at Lucero. Id. at 12. She was initially
given one week to claim the unit, but Eureka informed her that any open criminal charge must be
resolved first and gave her an extension until July 22 to resolve the issue. Id. at 13-14.
Dr. Gallogly’s criminal trespass case was set for a hearing on July 20, 2016. Id. at 11.
Although she wanted to go to trial, she was advised a trial could not be completed in time to
comply with Eureka’s July 22 deadline. Id. at 14. Feeling coerced, Dr. Gallogly agreed to a plea
bargain with a probationary term to resolve the case by Eureka’s deadline.2 Id. at 14.

2 The probationary term was deferred adjudication community supervision. See Dkt. #1-2 at 8.
3

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 4 of 25

Subsequently, Dr. Gallogly contends she was able to get her community supervision dismissed
using evidence she had previously provided to Burke.3 Id. at 53. However, she is still prohibited
from going onto the campus of the University of Texas at Austin or emailing anyone there. Id. at
55.
With the criminal charge resolved, Dr. Gallogly was able to move into Lucero. Since
moving to Lucero, Dr. Gallogly alleges Lucero’s living conditions have caused her “chronic and
unrelenting psychological stress.” Id. at 15. Dr. Gallogly describes issues with her neighbors,
with Eureka and its successor Dominium Apartments (“Dominium”),4 with the building itself,
and with access to the building. She alleges incidents of violence “skyrocketed” after the on-foot
patrolman at Lucero was replaced with a car patrol service. Id. at 16. Dr. Gallogly states she is
fearful of leaving her apartment and is “virtually imprisoned in her apartment.” Id. at 17-21. She
reports calling the Austin Police Department’s 311 or 911 number nearly 150 times regarding
incidents at Lucero. Id. at 15.
Dr. Gallogly also alleges chronic sleep deprivation from unrelenting noise due to Lucero
management’s failure to enforce its regulations, children playing unattended, residents playing
music loudly from their cars, purposeful noise-making from her above-the-floor neighbor,
frequent landscaping, and excessive fire alarm testing. Id. at 23-29. Dr. Gallogly also describes

3 Although Dr. Gallogly pleads that she “was able to get her Community Supervision dismissed after Mr. Burke
was removed from her case, and using much of the evidence Plaintiff provided to Mr. Burke while he was
representing her,” Compl. at 53, the Attachment she relies on does not support this, see Compl. at Att. 2.
Attachment 2 is her pro se Motion to Terminate Community Supervision and the Order Early Releasing Defendant
From Deferred Adjudication. The Motion itself includes no evidence, and the court Order merely states that she
“has complied with the terms and conditions of the Deferred Adjudication and that it is in the best interest of society
and the Defendant that an Early Discharge be granted.” Compl. at Att. 2.
4 Lucero is owned by 2013 Travis Heights LP, which Dr. Gallogly refers to as “Property Owner.” Compl. at 7.
Dr. Gallogly alleges that 2013 Travis Heights, LP is liable for all of the actions of Eureka and Dominium. Id. at 88.
The court will refer to Eureka, Dominium, and 2013 Travis Heights, LP collectively as the “Lucero Defendants.”
4

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 5 of 25

issues with poor maintenance. See id. at 31—32 (poor trash management and trash being strewn
around the complex); id. at 32, 34 (management being unresponsive to maintenance requests).
Dr. Gallogly also complains that Lucero’s premises are “unreasonably restrictive” and
restrict her “freedom of movement” in a way that threatens her safety. Id. at 47. Dr. Gallogly
notes that the shortest path to exit the complex “involves the use of a very busy and exhaustfilled street.” Id. Emergency exits, by contrast, lead to less busy streets. Id. The ban on the use
of emergency exits adds three minutes to exit the complex, which Dr. Gallogly alleges is a
problem because:
Plaintiff is not always feeling good or not menstruating, and obtaining flu
medicine or tampons with added travel time and exhaust to and from the grocery
store is a physical burden.
Plaintiff finds groceries are heavy, and while she can manage backpacking her
groceries . . . she is not a body builder, and she wishes to not experience
permanent spinal compression or something crazy like that.
Id. at 48^19. Dr. Gallogly states the restriction on movement has led to her being unable to
escape hostile situations or avoid problematic people. Id. at 49. Moreover, it has limited her
access to free yoga. Id. at 108.
Dr. Gallogly alleges she has been subjected to an “overwhelming paperwork burden” by
the Lucero Defendants. She complains of constant paperwork requests beginning with her initial
Section 8 income certifications and continuing to her lease renewals, her Section 8 income re­
certifications, and the Lucero Defendants’ failure to provide the correct or accurate paperwork
and refusal to print out the residents’ annual recertification documents. Id. at 36-37, 39-47.
Additionally, Dr. Gallogly alleges they improperly calculated her income and overcharged her
for her water bill. Id. at 29-31, 33, 40, 81.

5

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 6 of 25

B.

Causes of Action

Asserting federal question jurisdiction and Section 1983, Dr. Gallogly brings a host of
claims against those involved with her criminal trespass charge, the Lucero Defendants, and
multiple government entities. She alleges deprivations her of rights guaranteed by the Equal
Protection Clause, the Due Process Clause, the Sixth Amendment, and the Paperwork Reduction
Act (the “PRA”). She also asserts violations of her rights to work, to free choice of employment,
to protection from unemployment, and to freedom from degrading treatment as guaranteed under
the United Nations Declaration of Human Rights (“UNHDR”) and violations of her “domestic
tranquility” and “general welfare” rights derived from the preamble of the Constitution.
Related to her criminal trespass charge, Dr. Gallogly alleges that Burke, CAPDS, and the
Travis County Criminal Court violated her Fifth Amendment due process rights and her Sixth
Amendment rights by denying her effective counsel and a speedy trial and by accepting her
coerced plea bargain. She also alleges CAPD violated her equal protection rights by forcing her
undergo a competency evaluation during her menstrual cycle. Relatedly, she alleges the United
States violated her rights by failing to provide for extensions of such evaluations. She alleges the
Travis County District Attorney’s office violated her freedom of movement rights by barring her
from entering the University of Texas’s campus. She alleges the State of Texas’s expunction
statute and the United States’5 lack of a national expunction standard violate her due process
rights.
Dr. Gallogly alleges the Lucero Defendants violated her due process and equal protection
rights by basing her housing eligibility on her open arrest charge, having ineffective and
burdensome procedures for resolving maintenance and other complaints, enforcing policies that
5 Although she listed the U.S. Attorney’s Office, the Western District of Texas, and the Attorney General of the
United States, U.S. Department of Justice, as separate parties, Plaintiff refers to these entities and the United States
interchangeably. See Compl. at 6.
6

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 7 of 25

restrict her freedom of movement into and out of the apartment complex, retaliating against her
for making various complaints, and hiring a less qualified candidate than Dr. Gallogly to work in
the office.6 Dr. Gallogly also alleges they wrongly required her to pay an unmetered water bill,
miscalculated her utility bills and her income, and misrepresented HUD regulations, and they
violated by Paperwork Reduction Act by overwhelming her with paperwork. Dr. Gallogly
contends their treatment of her also violated the Texas Penal Code and the Texas Property Code.
Finally, as with other defendants, Dr. Gallogly alleges the Lucero Defendants violated her rights
under the UNDHR and the preamble to the Constitution.
Dr. Gallogly also claims her rights have been deprived by various state, local, and federal
governments’ and government agencies’ failures to enact legislation or regulation. Dr. Gallogly
alleges the Department of Housing and Urban Development (“HUD”) violated the equal
protection, domestic tranquility, general welfare, and due process rights of residents participating
in HUD programs by failing to mandate several policies that would improve their living
conditions. Id. at 61-62, 64-65, 67-73, 75-79, 84. She also faults the State of Texas, HUD, the
City of Austin, and the Environmental Protection Agency (“EPA”) for not creating a better
environment through regulation or putting in place better public safety laws. Id. at 62-63, 72.
Finally, Dr. Gallogly states her opposition to a recently proposed Congressional bill titled
Making Affordable Housing Work Act of 2018. Id. at 52.
C.

Standard of Review

Because Plaintiff has been granted leave to proceed in forma pauperis, the court is
required by statute to review the Complaint. A district court “shall dismiss” a case brought in
forma pauperis at any time if the court determines the action “(i) is frivolous or malicious; (ii)

6 Dr. Gallogly does not allege that someone outside other protected group was hired or that she has received an
EEOC right to sue letter.
7

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 8 of 25

fails to state a claim on which relief may be granted; or (iii) seeks monetary relief against a
defendant who is immune from such relief.” 28 U.S.C. § 1915(e)(2). A complaint is frivolous, if
it “lacks an arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325,
(1989); Siglar v. Hightower, 112 F.3d 191, 193 (5th Cir. 1997). A claim lacks an arguable basis
in law when it is “based on an indisputably meritless legal theory.” Neitzke, 490 U.S. at 327. A
claim lacks an arguable basis in fact when it describes “fantastic or delusional scenarios.” Id. at
327-28. Pro se complaints are liberally construed in favor of the plaintiff. Haines v. Kerner, 404
U.S. 519, 520-21 (1972); Coleman v. Lincoln Parish Det. Ctr., 858 F.3d 307, 309 (5th Cir.
2017). Flowever, pro se status does not offer a plaintiff an “impenetrable shield, for one acting
pro se has no license to harass others, clog the judicial machinery with meritless litigation, and
abuse already overloaded court dockets.” Farguson v. MBank Houston N.A., 808 F.2d 358, 359
(5th Cir. 1986).
A plaintiffs complaint must plead sufficient facts to “state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). The factual allegations must “raise a right to relief above
the speculative level.” Twombly, 550 U.S. at 555. While pro se complaints are held to less
stringent standards than those drafted by lawyers, pro se plaintiffs must still “plead factual
allegations that raise the right to relief above the speculative level.” Chhim v. Univ. of Tex. at
Austin, 836 F.3d 467, 469 (5th Cir. 2016) (citing Taylor v. Books A Million, Inc., 296 F.3d 376,
378 (5th Cir. 2002)).
Federal courts can only adjudicate cases and controversies that come before them. Raines
v. Byrd, 521 U.S. 811, 818 (1997). The doctrine of standing enforces the case-or-controversy
requirement. Id. To have standing before a federal court, (1) a plaintiff must have suffered an

8

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 9 of 25

actual or imminent injury in fact, (2) there must be a causal connection between the injury and
the conduct complained of, and (3) the injury must be redressable by a favorable decision. Lujan
v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992).
A Section 1983 claim requires (1) a deprivation of a federal right and (2) the alleged
deprivation be caused by a person acting under color of state law. Bryant v. Military Dep’t of
Miss., 597 F.3d 678, 686 (5th Cir. 2010). To bring a Section 1983 claim, a plaintiff must first
identify the deprived right as “one secured by the Constitution and laws.” Baker v. McCollan,
443 U.S. 137, 140 (1979); San Jacinto Sav. & Loan v. Kacal, 928 F.2d 697, 700 (5th Cir. 1991).
Section 1983 does not create rights on its own, but provides a cause of action for rights protected
by the United States Constitution and federal laws. Chapman v. Houston Welfare Rights Org.,
441 U.S. 600, 617-18 (1979). Rights protected by state law are not covered by Section 1983.
Baker, 443 U.S. at 145-46.
D.

Discussion

As described above, Dr. Gallogly pleaded a plethora of claims against numerous
defendants. However, as discussed below, many of her claims allege violations of “rights” that
are not recognized in federal courts, namely her UNDHR claims, her overwhelming paperwork
claims, and her preamble claims. Additionally, she has sued the Lucero Defendants under
Section 1983, but they are not state actors. For the reasons given below, her remaining equal
protection claims, due process claims, Sixth Amendment claims, and claims to compel
legislation and regulation also fail to provide her a basis for relief.

9

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 10 of 25

1. Non-cognizable claims
Throughout her Complaint, Dr. Gallogly alleges that various defendants infringed rights
granted to her by the UNHDR, the preamble to the Constitution, and the Paperwork Reduction
Act. However, none of these sources provide rights for which she can sue.
Dr. Gallogly claims defendants have violated her UNDHR rights to work, to free choice
of employment, to protection from unemployment, and to freedom from degrading treatment.
The UNDHR does not state or create any rights that can be asserted in federal court, and rights
proclaimed by the UNDHR are not federal rights under Section 1983. See Sosa v. AlvarezMachain, 542 U.S. 692, 734 (2004) (“[T]he Declaration does not of its own force impose
obligations as a matter of international law.”); Dickens v. Lewis, 750 F.2d 1251, 1254 (5th Cir.
1984) (“individual plaintiffs do not have standing to raise claims under the United Nations
Charter and [] other international obligations”).
Dr. Gallogly alleges violations of her “domestic tranquility” and “general welfare” rights
derived from the preamble of the Constitution. See U.S. Const, pmbl. (“insure domestic
Tranquility” and “promote the general Welfare”). Domestic tranquility and general welfare are
not federally protected rights, and the Constitution’s preamble does not create rights upon which
a plaintiff can sue. See District of Columbia v. Heller, 554 U.S. 570, 579-80 (2008) (the
preamble of the Constitution deals “with the exercise or reservation of powers, not rights”); see
also Jacobson v. Mass., 197 U.S. 11, 22 (1905) (“Although that Preamble indicates the general
purposes for which the people ordained and established the Constitution, it has never been
regarded as the source of any substantive power conferred on the Government of the United
States, or on any of its Departments.”).

10

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 11 of 25

Similarly, Dr. Gallogly’s overwhelming paperwork claims under the Paperwork
Reduction Act (“PRA”), see 5 C.F.R. § 1320 et seq., do not concern a federally protected right.
The PRA merely creates a defense to a paperwork demand, it does not create a cause of action
that can be asserted in federal court. See 44 U.S.C. § 3512; Smith v. U.S., No. 08-10288, 2008
WL 5069783, at *1 (5th Cir. Dec. 2, 2008) (“The Paperwork Reduction Act provides a defense
to administrative or judicial enforcement actions, but does not create a private right of action for
alleged violations of the statute.”); Ass ’n of Am. Physicians & Surgeons, Inc. v. U.S. Dep’t of
Health & Human Servs., 224 F. Supp. 2d 1115, 1129 (S.D. Tex. 2002) (“The PRA does not
create a private right of action.”).
Because neither the UNDHR, nor the preamble, nor the PRA are sources of federal
rights, Dr. Gallogly has failed to state viable claims for relief to enforce these rights.
Accordingly, these claims should be dismissed.
2. Claims against the Lucero Defendants
In addition to her UNDHR, preamble, and PRA claims, Dr. Gallogly alleges many other
claims against the Lucero Defendants under Section 1983. Specifically, Dr. Gallogly asserts the
Lucero Defendants violated her due process or equal protection rights by basing her housing
eligibility on her open arrest charge, having ineffective and burdensome procedures for
maintenance and other complaints, enforcing policies that restrict her freedom of movement into
and out of the apartment complex, retaliating against her for making various complaints, and
hiring a less qualified candidate than her to work in the office. Dr. Gallogly also alleges they
wrongly required her to pay an unmetered water bill, miscalculated her utility bills or income,
and misrepresented HUD regulations. Finally, Dr. Gallogly alleges they violated the Texas
Penal Code and the Texas Property Code.

11

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 12 of 25

Section 1983 protects individuals from deprivations of federal rights caused by a person
acting under color of state law. Bryant, 597 F.3d at 686. The Lucero Defendants are not state
actors. “The mere fact that a business is subject to state regulation does not by itself convert its
action into that of the State for purposes of the Fourteenth Amendment.” Blum v. Yaretsky, 457
U.S. 991, 1004 (1982). To demonstrate state action, a plaintiff must show “a sufficiently close
nexus between the State and the challenged action of the regulated entity.” Id. (emphasis added).
Government must have “exercised coercive power or has provided such significant
encouragement, either overt or covert, that the choice must in law be deemed to be that of the
[government].” Id. Authorization to perform an action is insufficient, state or federal law must
compel the actor for it to be state action. S.F. Arts & Athletics, Inc. v. U.S. Olympic Comm., 483
U.S. 522, 546^47 (1987).
The Lucero Defendants’ accused actions, such as retaliating against her or incorrectly
calculating her income, are not acts compelled by state or federal law. Therefore, absent
government staffing or statutory compulsion, acts by the Lucero Defendants are not state or
federal actions. See Miller v. Hartwood Apartments, Ltd., 689 F.2d 1239, 1242-44 (5th Cir.
1982) (“Although HUD regulations do establish the broad guidelines with which the Section 8
lessors must comply, the lessors nevertheless operate the housing complexes on a day-to-day
basis and are, in all senses of the word, private owners.”). Additionally, Dr. Gallogly also cannot
assert claims against the Lucero Defendants under Section 1983 for violations of the Texas Penal
or Property Codes because rights protected by state law are not covered by Section 1983. Baker,
443 U.S. at 145-46. Accordingly, Dr. Gallogly cannot bring claims under Section 1983 against
the Lucero Defendants.

12

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 13 of 25

3. Equal protection claims
Dr. Gallogly asserts several unrelated equal protection claims. Related to her Sixth
Amendment claims, Dr. Gallogly asserts CAPD violated her equal protection rights by requiring
a competency evaluation during the beginning of her menstrual cycle. Compl. at 54. Similarly,
she alleges the United States is likewise culpable because “there is no rule of law providing an
extension for competency evaluations past the 30-day requirement from order for medical
reasons.” Id.

However, as Dr. Gallogly passed her competency exam, despite it occurring

during the beginning of her menstrual cycle, she has failed to allege any harm to her from these
policies. Accordingly, she has failed to state a claim for relief. See Lujan, 504 U.S. at 560-61
(requiring an injury in fact).
Dr. Gallogly also asserts equal protection claims against HUD for its failure to limit
community noise and implement regulations that include internet expenses in Section 8
residents’ utility allowances and equal protection claims against the EPA and the City of Austin
for their respective failures to regulate and implement comprehensive recycling programs for
residents in multifamily housing. Compl. at 63-64, 68-70, 72. The Equal Protection Clause
requires the government to treat similarly situated persons alike. City of Cleburne v. Cleburne
Living Ctr., Inc., 473 U.S. 432, 439 (1985). Dr. Gallogly’s claims are based on her status as a
Section 8 or multifamily housing resident,7 and her claims fail as a matter of law because all
public or multifamily housing residents face the same issues she describes—therefore similarly
situated persons are treated alike. To the extent she attempts to compare persons in public or
multifamily housing to persons not in public or multifamily housing, those groups are not

7 Plaintiff contends domestic tranquility and general welfare are equal protection issues because 48% of
subsidized housing members are black and because 75% of subsidized housing members are women. Compl. at 5960.
13

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 14 of 25

similarly situated and there can be no equal protection claim. Accordingly, Dr. Gallogly’s equal
protection claims should be dismissed. 8
4. Due process claims
Dr. Gallogly asserts many “due process” claims throughout her Complaint against
various defendants.9
Dr. Gallogly asserts due process claims stemming from the handling and resolution of her
criminal trespass charge, specifically claims against the Travis County Criminal Court for
allowing her coerced plea bargain, see Compl. at 53-55, and claims against the Travis County
District Attorney’s office for its stance prohibiting Dr. Gallogly from going on to the University
of Texas campus or emailing anyone at the University, see Compl. at 55. However, as Dr.
Gallogly acknowledges, these claims also implicate her Sixth Amendment rights. A plaintiff may
bring a substantive “due process” claim under the Fourteenth Amendment only if the claim
alleged is not susceptible to proper analysis under a specific constitutional source. See Petta v.
Rivera, 143 F.3d 895, 900-01 (5th Cir. 1998); see also Graham v. Connor, 490 U.S. 386, 395
(1989). Accordingly, these claims will be considered with her other Sixth Amendment claims,
supra.
Dr. Gallogly alleges several entities violate her due process rights by their failure to
regulate or pass legislation.10 Specifically, Dr. Gallogly alleges HUD violates her rights by: 1)

Even if the Lucero Defendants were found to be state actors, Dr. Gallogly’s similar equal protection claims
against them would fail for the same reasons.
9 As discussed above, Dr. Gallogly cannot assert due process claims under Section 1983 against the Lucero
Defendants because they are not state actors. Dr. Gallogly alleges the Lucero Defendants violated her due process
rights by: 1) Eureka’s policy of limiting housing eligibility based on pending criminal charges, see Compl. at 56-57;
2) their procedures for maintenance and other complaints, see Compl. at 71, 75; 3) their failure to provide email
addresses to resolve disputes or forward complaints to the appropriate email address, see Compl. at 88; and 4) their
policies, such as the use of and locations of entrances and exits and the use of emergency exits, that restrict her
freedom of movement, see Compl. at 47-51, 63, 90-91.
14

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 15 of 25

its failure to regulate to ensure “due process for having [residents’] rights to domestic tranquility
upheld,” see Compl. at 61, 75; and 2) its failure to include internet access in its utilities
allowance, which Dr. Gallogly contends restricts her “freedom of cybermovement,” see id. at 6768, 70. Similarly, Dr. Gallogly alleges the City of Austin violates her due process rights by its
failure to implement a recycling program, see id. at 72, and the EPA violates her rights by its
failure to propose and issue comprehensive regulations regarding recycling and sustainability,
see id. She contends the State of Texas, HUD, and the City of Austin have failed to put in place
adequate physical security and safety laws, see id. at 63. She also alleges the United States
violates her rights by failing to establish a national expunction standard, see id. at 57-58, and a
national competency examination standard, see id. at 54. The court will address these “failure to
legislate or regulate” claims together.
From the court’s review of Dr. Gallogly’s Complaint, Dr. Gallogly has pleaded two
additional due process claims. First, Dr. Gallogly alleges that HUD violated her due process
rights by its failure to provide email addresses to resolve disputes or forward complaints to the
appropriate email address, see id. at 82. Second, Dr. Gallogly alleges that the State of Texas’s
expunction statute violates her due process rights because “an individual completing a jail term
for a violent felony has more and swifter expunction rights than Dr. Gallogly serving a
probationary term for criminal trespass misdemeanor,” see id. at 57-58. The court will address
these claims in turn.
a. Failure to legislate or regulate claims
Dr. Gallogly pleaded many claims that the United States’, the State of Texas’s, the City
of Austin’s, and federal agencies’ failures to pass and enforce specific laws, ordinances, or
regulations constitute a deprivation of her rights.
10 Several of these claims are similar or identical to her equal protection claims.
15

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 16 of 25

“[A] plaintiff who seeks to invoke federal judicial power must assert more than just the
‘generalized interest of all citizens in constitutional governance.’” Ariz. Christian Sch. Tuition
Org. v. Winn, 563 U.S. 125, 132 (2011) (quoting Schlesinger v. Reservists Comm, to Stop the
War, 418 U.S. 208, 217 (1974)). To have standing to bring a claim, a plaintiff must have (1)
suffered an injury in fact, (2) there must be a causal connection between the injury and the
conduct complained of, and (3) it must be likely that the injury will be redressed by a favorable
decision. Lujan, 504 U.S. at 560-61. “[Assertion of a right to a particular kind of Government
conduct, which the Government has violated by acting differently, cannot alone satisfy the
requirements of Art. Ill. . . .” Id. at 576 (quoting Valley Forge Christian Coll. v. Ams. Unitedfor
Separation of Church & State, Inc., 454 U.S. 464, 483 (1982)). “Vindicating the public interest.
. . is the function of Congress and the Chief Executive.” Id. Dr. Gallogly’s prayer for relief that
Congress pass various laws is not a remedy available from federal courts. While courts can
address the deprivation of an existing federal right, they cannot compel legislative bodies to pass
new laws.11
Regarding federal agencies such as HUD or the EPA, “[a] person suffering legal wrong
because of agency action, or adversely affected or aggrieved by agency action within the
meaning of a relevant statute, is entitled to judicial review thereof.” 5 U.S.C. § 702. A court may,
to the extent necessary, “compel agency action unlawfully withheld or unreasonably delayed.” 5
U.S.C. § 706(1). A court can only “compel an agency to perform a ministerial or non­
discretionary act” or “take action upon a matter, without directing how it shall act.” Norton v. S.
Utah Wilderness All., 542 U.S. 55, 64 (2004) (citation omitted). “Thus a claim under § 706(1)
can proceed only where a plaintiff asserts that an agency failed to take a discrete agency action
11 Dr. Gallogly also states her opposition to a proposed piece of legislation. Courts cannot preemptively block
proposed legislation since proposed legislation cannot have deprived anyone of their rights. Nor can courts
speculate about the legality of proposed legislation.
16

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 17 of 25

that it is required to take.'" Id. A plaintiff “cannot seek wholesale improvement” of a government
program by court order rather than lobbying in the offices of the agency or Congress. Id.
(quoting Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 891 (1990)).
Dr. Gallogly has not provided a specific statutory mandate or non-discretionary
obligation of HUD or the EPA that the respective agency has failed to act upon. Rather, her
complaints seek wholesale improvement of governmental programs. See, e.g., Compl. at 71-72
(complaining about HUD’s lack of a comprehensive set of regulations regarding maintenance
and accessibility of amenities and the EPA’s lack of a “specific and comprehensive” set of
regulation for recycling and sustainability). Therefore, the relief Dr. Gallogly seeks cannot be
provided by this court and she has failed to state a viable claim for relief.
b. HUD’s failure to provide an email address
Dr. Gallogly alleges that HUD violated her due process rights by its failures to provide
email addresses to resolve disputes and to forward complaints to the appropriate email address.
Compl. at 82. The procedural aspect of the Due Process Clause requires states to follow fair
procedures before depriving someone of their life, liberty, or property. It is only when the state
deprives an individual of a “protected interest”—that is, “life, liberty, or property”—that fair
procedures are constitutionally mandated. See, e.g., Mullane v. Central Hanover Bank & Trust
Co., 339 U.S. 306, 313 (1950). Before a state actor deprives an individual of a protected interest,
he must provide notice ‘“reasonably calculated, under all the circumstances, to apprise interested
parties of the pendency of the action and afford them an opportunity to present their objections.’”
Dusenbery v. United States, 534 U.S. 161, 168 (2002) (quoting Mullane, 339 U.S. at 314).
Despite the characterizations made in her Complaint, Dr. Gallogly’s claims do not
involve deprivations by HUD of her “life, liberty, or property,” nor do HUD’s failures to provide

17

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 18 of 25

an email address or forward her complaints constitute a denial of the opportunity to be heard.
Dr. Gallogly has failed to state a due process claim against HUD on this ground.
c. State of Texas expunction code claim
Dr. Gallogly alleges Texas’s expunction statute violates her due process rights. Compl.
at 57-58. Specifically, she alleges “an individual completing a jail term for a violent felony has
more and swifter expunction rights than Plaintiff serving a probationary term for criminal
trespass misdemeanor.” Id. The court first notes that Dr. Gallogly mischaracterizes the Texas
expunction statute. See Tex. Code Crim. P. Art. 55.01. “[A]n individual completing a jail time
for a violent felony” is only eligible for expunction if he has been pardoned or “otherwise
granted relief on the basis of actual innocence.” Id. at 55.01(a)(1)(B).
Additionally, Dr. Gallogly pleaded:
In preparing this complaint and going back through the paperwork, Plaintiff notes
that her Community Supervision early release form indicates a change to
dismissal, making her possibly eligible for expunction (see Attachment 2).
Although, it is unclear whether there is a special dismissal category for
probationary terms that only allow for an orders of nondisclosures, and not for
expunctions. In the event this is the case, Plaintiff avers such a type of legislation
would not pass the laugh test. Plaintiffs ongoing sleep deprivation and torment at
Lucero Apartments has interfered with her ability to remember this fact and take
appropriate action; furthermore, she cannot afford an attorney.
Because of the incessant torment of Plaintiff on Lucero Apartments property
grounds and her resulting inability to focus, it has just become clear to Plaintiff as
of July 4, 2018 in preparing this complaint, that perhaps expunction of her
community supervision term is possible because it was commuted to a dismissal.
Whereas Plaintiff possesses the capacity to write her own petition for expunction,
Plaintiff believes it necessary to keep the file available as evidence during court
proceedings for this current civil complaint.
Compl. at 58, 94. Attachment 2 to the Complaint is an “Order Early Releasing Defendant from
Deferred Adjudication” and dismissing the charges against her. Compl. at Att. 2. Additionally,
the Order provides that Dr. Gallogly, if she is eligible, may file a petition for an order of

18

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 19 of 25

nondisclosure immediately. Id. However, from her Complaint, Dr. Gallogly has not sought
nondisclosure or expunction. Compl. at 58, 94. Accordingly, she lacks standing to assert she
has been constitutionally injured by either statute. See Lujan, 504 U.S. at 560-61. This claim
should be dismissed.
5. Fifth and Sixth Amendment claims
Dr. Gallogly asserts a Fifth Amendment due process claim against the Travis County
Criminal Court for allowing her coerced plea bargain. 12,

13

Compl. at 53-55. Dr. Gallogly’s

alleged coercion stemmed from the timing pressure she felt to resolve her criminal trespass
charge in order to remain eligible for the unit at Lucero. She pleaded:
65. During her July 20, 2016 court hearing, Plaintiff stated to The Court that she
wished to go to trial. However, her lawyers advised her behind closed doors in a
side conference room that trial would not be completed in time for her to have the
case resolved for Eureka Multifamily’s July 22, 2016 deadline to reopen her
eligibility to take up occupancy in her public housing unit at Lucero Apartments.
66. Therefore, Plaintiff signed a plea bargain with a probationary term, stating on
record that she felt coerced into the plea bargain based on the timing relative to
her housing eligibility. The Judge for Travis County Criminal Court did not ask
for details surrounding Plaintiffs stated feeling of coercion, and attempted to
make Plaintiff retract her coercion statement before she ruled. Plaintiff did not
cooperate with the retraction, and the Judge ruled anyway.
Compl. at 14.

12 The court notes the Travis County Criminal Court is not a legal entity that can be sued. See Darby v.
Pasadena Police Dep’t, 939 F.2d 311,313-14 (5th Cir. 1991). Nor could the presiding judge be sued for his or her
role in proceeding, as the judge would be entitled to judicial immunity. See Ballard v. Wall, 413 F.3d 510, 515 (5th
Cir. 2005) (holding a judge is entitled to judicial immunity when acting in his or her capacity as a judicial officer,
“even when the judge is accused of acting maliciously and corruptly”). Nonetheless, the court addresses the claim
to the extent it should consider either the State of Texas or Travis County as the intended defendants.
13 This review most often occurs in the context of a Section 2254 habeas petition. Dr. Gallogly is not eligible to
bring such a petition because she is not in state custody. 28 U.S.C. § 2254(a). Because Dr. Gallogly cannot proceed
under Section 2254, if these claims were allowed to proceed, it is unclear whether the court would have jurisdiction
over these claims under the Rooker-Feldman doctrine, which precludes lower federal court review of state court
judgments except when authorized by Congress. Burciaga v. Deutsche Bank Nat'l Tr. Co., 871 F.3d 380, 387 (5th
Cir. 2017).
19

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 20 of 25

When an accused enters a plea of no contest, he waives his right to testify in his own
behalf, the right to a jury trial and the right to confrontation. Fisher v. Wainwright, 584 F.2d
691, 693 (5th Cir. 1978). A state court may not accept a guilty plea unless the defendant enters it
voluntarily and with a complete understanding of the nature of the charge and the consequences
of his plea. Frank v. Blackburn, 646 F.2d 873, 882 (5th Cir. 1980), modified, 646 F.2d 902 (5th
Cir. 1981). A federal court reviewing a state court plea bargain may only set aside a guilty plea
or plea agreement which fails to satisfy due process. Frank, 646 F.2d at 882. If a defendant
understands the charges, understands the consequences of a guilty plea, and voluntarily chooses
to plead guilty, without being coerced to do so, the guilty plea and any concomitant agreement
will be upheld on federal review. Id. A plea induced by threats, improper promises, deception,
or misrepresentation is not voluntary. See United States v. Amaya, 111 F.3d 386, 389 (5th Cir.
1997). “The voluntariness of a plea is determined by ‘considering all of the relevant
circumstances surrounding it.’” Fischer, 584 F.2d at 693 (quoting Brady v. United States, 397
U.S. 742, 749 (1970)).
Dr. Gallogly has not alleged that her plea was induced by threats, improper promises,
deception, misrepresentations, or any other unconstitutional force. Rather, she alleges she was
“coerced” into the plea from outside pressures, namely her desire to retain her eligibility for
Section 8 housing. She does contend she was denied a trial or forced into a plea by the court, the
prosecutor, or her counsel, but merely that she was told a trial could not be completed in time to
meet her two-day deadline. Dr. Gallogly’s claim fails as a matter of law.
Dr. Gallogly alleges that her Sixth Amendment right to a speedy trial was violated
because there was an almost year-long period between her arrest for criminal trespass and the

20

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 21 of 25

resolution of her case, which contributed to her coerced plea bargain.14 Id. at 11, 12. The Sixth
Amendment right to a speedy trial does apply to state court proceedings, but “[t]he sole remedy
for a violation of the speedy trial right” is “dismissal of the charge.” Betterman v. Montana, 136
S. Ct. 1609, 1615 (2016). It appears Dr. Gallogly’s charges have already been dismissed.
Accordingly, there is no remedy this court can order for the alleged violation of her speedy trial
right. See Compl. at Att. 2 (Order Early Releasing Defendant from Deferred Adjudication).
Dr. Gallogly also alleges Burke provided ineffective assistance of counsel as evidenced
by the fact she was able to get her community supervision dismissed after Burke ended his
representation.15 Compl. at 53. Dr. Gallogly seeks penalties imposed on Burke by the American
Bar Association. Id. at 114. A district court may impose sanctions on abusive behavior before it
through Rule 11 or the inherent powers framework. Fed. R. Civ. P. 11 (b)-(c); NASCO, Inc. v.
Calcasieu Television & Radio, Inc., 894 F.2d 696, 702-03 (5th Cir. 1990). Flowever, Burke is not
an attorney involved in this litigation before this court. The relief sought by Dr. Gallogly is
therefore not a remedy that can be provided by this court. Dr. Gallogly’s Sixth Amendment
claims should be dismissed.
Dr. Gallogly asserts claims against the Travis County District Attorney’s Office16 for its
stance prohibiting her from going on to the University of Texas campus or emailing anyone at

14 The court notes that during this time, Dr. Gallogly’s attorney filed a motion to suppress on her behalf, Dr.
Gallogly herself filed at least one pretrial motion, and Dr. Gallogly underwent a competency examination. Compl.
at 9, 9-10, 10.
15 As described in the Complaint, Dr. Gallogly’s criminal trespass charge was either a Class A or B
misdemeanor, punishable by up to one year in jail (Class A) or up to 180 days in jail (Class B). Tex. Penal Code §
30.05(d); §§ 12.21, 12.22. “No person may be imprisoned for any offense, whether classified as petty,
misdemeanor, or felony, unless he was represented by counsel at his trial.” Argersinger v. Hamlin, 407 U.S. 25, 37
(1972).
16 The court notes the Travis County District Attorney’s office is not a legal entity that can be sued. See Darby,
939 F.2d at 313-14. Nor could the prosecuting attorneys be sued for their role in her prosecution as they would be
entitled to absolute immunity. See Esteves v. Brock, 106 F.3d 674 (5th Cir. 1997). Nonetheless, the court addresses
the claim to the extent it should consider either the State of Texas or Travis County as the intended defendants.
21

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 22 of 25

the University in violation of her right to freedom of movement.17 Id. at 55. The right to
freedom of movement protects individuals from being stopped by the police without probable
cause. Kolender v. Lawson, 461 U.S. 352, 360-61 (1983). It also grants individuals the right to
travel between states and countries. United States v. Guest, 383 U.S. 745, 759 (1966).
Additionally, an individual’s freedom of movement has not been held to affect whether an
individual is allowed to enter a specific building. Williams v. Town of Greenburgh, 535 F.3d 71,
76 (2nd Cir. 2008) (“It would distort the right to free travel beyond recognition to construe it as
providing a substantive right to cross a particular parcel of land, enter a chosen dwelling, or gain
admittance to a specific governmental building.”).18 Accordingly, Dr. Gallogly’s alleged
restrictions are not protected by the right to freedom of movement.
6. Conclusion
All of Dr. Gallogly’s claims against all of the named defendants should be dismissed.
Many of Dr. Gallogly’s claims assert rights that do not provide a cause of action. Her remaining
claims, as asserted, are based on indisputably meritless legal theories because the grievances she
describes are not protected by the claims she asserts. Additionally, she has named as defendants
several entities that either cannot be sued at all or cannot be sued under Section 1983. Despite
the length of her Complaint and the number of grievances asserted, Dr. Gallogly has failed to
state a plausible claim on which relief may be granted.

17 The Complaint does not describe the factual or procedural basis for how Dr. Gallogly came to be barred from
the University of Texas campus or from emailing anyone at the University.
18 Were the Lucero Defendants to survive the court’s earlier analysis finding they are not state actors, Dr.
Gallogly would have no “freedom of movement” claim against them for similar reasons.
22

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 23 of 25

III.

Motion to Appoint Counsel
Dr. Gallogly’s Motion to Appoint Counsel (Dkt. #3) is also before the court. In deciding

whether to grant the request for appointment of counsel, a court should examine: (1) the efforts
taken by the plaintiff to obtain counsel; (2) the plaintiffs financial ability to retain counsel; and
(3) the merits of the plaintiffs claims. Gonzalez v. Carlin, 907 F.2d 573, 580 (5th Cir. 1990).
Courts have also considered a plaintiffs ability under the circumstances of the case to present
the case without the assistance of an attorney. Poindexter v. FBI, 737 F.2d 1173, 1189 (D.C. Cir.
1984); Ulmer v. Chancellor, 691 F.2d 209, 213 (5th Cir. 1982). A plaintiff has the burden of
persuasion with regard to the application. Caston v. Sears, Roebuck & Co., 556 F.2d 1305, 1310
(5th Cir. 1977). There is no automatic right to the appointment of counsel, but the decision
whether to appoint counsel rests within the sound discretion of the trial court. Id. at 1309. In
general, the circumstances under which a litigant is entitled to counsel are limited. Lee v. Postal
Servs., 882 F. Supp. 589, 593 (E.D. Tex. 1995).
Dr. Gallogly states she has been unable to find an attorney to represent her in an
unrelated litigation, and she has shown that she is financially unable to retain counsel. However,
as described above, the merits of her claims to not support the appointment of counsel.
Additionally, Dr. Gallogly—who holds a Ph.D. in psychology—has shown herself able to
sufficiently articulate her claims and represent herself in this lawsuit. This finding weighs
against Dr. Gallogly’s request for appointment of counsel. See Blackman v. Global Indus.
Offshore, L.L.C., 228 Fed. App’x 410, 411 (5th Cir. 2007) (district court did not err in denying
motion for appointment of counsel based on finding plaintiff is “capable of articulating his
claims and adequately representing his interests in this case”). Accordingly, Dr. Gallogly’s
Motion to Appoint Counsel (Dkt. #3) is DENIED.

23

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 24 of 25

IV.

Miscellaneous Motions
District Judge Robert Pitman’s standing order regarding Court Docket Management only

refers motions for appointment of counsel in conjunction with applications to proceed in forma
pauperis.
available

Court Docket Management Order of U.S. District Judge Pitman (Jan. 8, 2015),
here

https://www.txwd.uscourts.gov/iudges-information/standing-orders/.

Accordingly, the undersigned does not have the authority to rule on Dr. Gallogly’s Motion for
Leave of Court or for Electronic Filing (Dkt. #4) or her Motion to Extend Time (Dkt. #5).
However, because Dr. Gallogly’s Sealing Motion (Dkt. #6) and her Motion to Amend
Complaint (Dkt. #10) directly relate to the undersigned § 1915(e) review of the Complaint, the
undersigned has authority to resolve those motions. Accordingly, the court GRANTS Dr.
Gallogly’s Sealing Motion (Dkt. #6) and GRANTS Dr. Gallogly’s Motion to Amend (Dkt. #10).
The court has taken note that Dr, Gallogly brings her claims under 28 U.S.C. § 1331 and 42
U.S.C. § 1983. Given that the undersigned is recommending dismissal of all her claims, there is
no need for the Clerk’s Office to refile the Complaint with the substituted first page unless the
District Judge does not adopt the undersigned’s recommendations and instead orders that the
Complaint be served.
V.

Order and Recommendations
The Magistrate Court hereby GRANTS Plaintiffs Application to Proceed In Forma

Pauperis (Dkt. #2), GRANTS Plaintiffs Sealing Motion (Dkt. #6), and GRANTS Plaintiffs
Motion to Amend (Dkt. #10). The Magistrate Court hereby DENIES Plaintiffs Motion to
Appoint Counsel (Dkt. #3). Finally, the Magistrate Court RECOMMENDS the District Court
DISMISS Plaintiffs Complaint pursuant to 28 U.S.C. § 1915(e)(2)(B).
The referral to the Magistrate Judge should now be cancelled.

24

Case l:18-cv-00571-RP Document 11 Filed 11/19/18 Page 25 of 25

VI.

Warning
The parties may file objections to this Report and Recommendation. A party filing

objections must specifically identify those findings or recommendations to which objections are
being made. The District Court need not consider frivolous, conclusive, or general objections.
See Battles v. United States Parole Comm ’n, 834 F.2d 419, 421 (5th Cir. 1987).
A party’s failure to file written objections to the proposed findings and recommendations
contained in this Report within fourteen (14) days after the party is served with a copy of the
Report shall bar that party from de novo review by the District Court of the proposed findings
and recommendations in the Report and, except upon grounds of plain error, shall bar the party
from appellate review of unobjected-to proposed factual findings and legal conclusions accepted
by the District Court. See 28 U.S.C. § 636(b)(1)(C); Thomas v. Am, 474 U.S. 140, 150-53
(1985); Douglass v. United Services Automobile Ass’n, 79 F.3d 1415 (5th Cir. 1996)(en banc).

SIGNED November 19, 2018
MARK LANE •
UNITED STATES

25

TRATE JUDGE

